                                                             National Railroad Passenger Corporation
                                                                           Office of Inspector General
                                                                                           10 G Street, N.E.
                                                                                      Washington, DC 20002




                   Closed-Circuit Television System Not Fully Functional
                                      March 3, 2011
                                       Case #10-258

The Office of Inspector General (OIG), Office of Investigations (OI), conducted a proactive
inquiry involving a contractual agreement with a vendor who was hired to install a closed-circuit
television system at one of Amtrak’s facilities. The vendor in question had installed cameras that
were not fully functional.

Once OI requested the assistance of Amtrak’s Procurement Department to rectify the problem,
the vendor agreed to provide Amtrak with upgraded equipment totaling $20,576 at no additional
cost to the company.
